<html>
<title> - TURKEY'S DEMOCRATIC DECLINE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                       TURKEY'S DEMOCRATIC DECLINE

=======================================================================

                                 HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 13, 2016

                               __________

                           Serial No. 114-196

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _________
                                
                                
                       U.S. GOVERNMENT PUBLISHING OFFICE
20-746PDF                      WASHINGTON : 2016                       
                                
                                 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="385f4857785b4d4b4c505d5448165b575516">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                
                                
                            ----------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       GREGORY W. MEEKS, New York
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
MO BROOKS, Alabama                   THEODORE E. DEUTCH, Florida
PAUL COOK, California                WILLIAM KEATING, Massachusetts
RANDY K. WEBER SR., Texas            LOIS FRANKEL, Florida
REID J. RIBBLE, Wisconsin            TULSI GABBARD, Hawaii
DAVID A. TROTT, Michigan
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Henri J. Barkey, Ph.D., director, Middle East Program, The Wilson 
  Center.........................................................     6
Fevzi Bilgin, Ph.D., president, Rethink Institute................    13
Mr. Alan Makovsky, senior fellow, Center for American Progress...    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Henri J. Barkey, Ph.D.: Prepared statement.......................     8
Fevzi Bilgin, Ph.D.: Prepared statement..........................    15
Mr. Alan Makovsky: Prepared statement............................    23

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Dana Rohrabacher, a Representative in Congress from 
  the State of California, and chairman, Subcommittee on Europe, 
  Eurasia, and Emerging Threats: Material submitted for the 
  record.........................................................    58

 
                      TURKEY'S DEMOCRATIC DECLINE

                              ----------                              


                        WEDNESDAY, JULY 13, 2016

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:54 p.m., in 
room 2200, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. I call the subcommittee to order. This is 
our second subcommittee event of 2016 focused on the 
development of the situation in Turkey. And as we continue to 
watch with concern, I have titled today's hearing, ``Turkey's 
Democratic Decline.''
    Let me say from the offset that our comments, and even our 
criticisms, of the Turkish Government are predicated on a deep 
respect for Turkey and the Turkish people. Turkey and America 
have been and are friends. Friends speak plainly to one another 
about problems. That is what you will hear today.
    I would like to take this opportunity to extend my 
condolences to the families of all the victims of last month's 
terrorist attack at Istanbul's airport. It was a cowardly 
attack by radical Muslim extremists. And traveling through that 
region, I was able to personally pay a tribute to the victims 
of this horrendous massacre just a few days after the tragic 
event had occurred.
    Our expressions reflected those of sorrow, expressed and 
reflected those of the American people. Turkish victims are no 
different than American victims. These people have been 
murdered in recent months and recent years by radical 
extremists, represent an evil force on this planet that must be 
defeated and destroyed. And both of our countries, Turkey and 
the United States, will be a safer people and place when that 
happens.
    Those of you who have observed this subcommittee know, that 
while wishing the best for Turkey, we have concerns about 
actions taken by President Erdogan that may put his people at 
risk and weaken the strong ties between our countries. Our hope 
for a better situation and things would turn around has not 
happened, and we have been disappointed. And there is a 
mounting body of evidence suggesting that President Erdogan's 
party and his regime seems to be involved with corruption and 
misrule that is taking Turkey in exactly the wrong direction.
    President Erdogan's party has used the levers of power to 
limit dissent and to crack down on free journalism. Thousands 
of judges and prosecutors have been reassigned based on their 
political inclinations. And immunity from parliamentarians have 
been lifted, opening the way for charges to be used against 
them in order to sideline opposition, especially those in the 
HDP.
    Seemingly erratic, Erdogan has officially designated the 
followers of Mr. Gulen as a terrorist group, and this group was 
once, of course, a lynchpin of his political coalition. So he 
has gone from a relationship with a group that has been very 
important to his success to now declaring them as enemies and 
declaring them the enemies of his country. They helped bring 
him to power and now he has targeted them for repression.
    These kind of steps have taken Turkey further away from the 
shared values at the heart of our American-Turkish alliance. 
While a representative from the Committee to Protect 
Journalists couldn't be here today in person, they did send a 
written statement, and I will be submitting the entire 
statement for the record. But I wanted to read a short excerpt 
from it now.
    The Committee to Protect Journalists reports that over the 
past 2 years the Turkish Government, and I quote,

        ``Increased its repressive action against the press 
        through using vague, broadly worded antiterrorist laws, 
        bringing charges under an archaic law that carries jail 
        terms for insulting the President, replacing the 
        editorial management of opposition media outlets and 
        firing their staff, routinely imposing bans on the 
        reporting of sensitive stories, and prosecuting and 
        imprisoning journalists on antistate charges in 
        retaliation for their work.''

    That is, indeed, a sad description for the state of free 
media in Turkey. It is a sad description of how Turkey has 
changed in these last 5 years and has gone in the wrong 
direction. While I have always strived to maintain a balanced 
perspective, it is clear to me that Erdogan's actions have 
hobbled Turkey's democracy at home and left his country more 
isolated in the region than at any other time in recent memory.
    I have many questions for our witnesses today, but I 
especially look forward to their views on the recent 
rapprochement between Turkey, Russia, and Israel. While such 
developments are, of course, welcome, I can't help but wonder 
if this is merely a momentary change of attitude or something 
more durable. We can get into that during the testimony.
    With that said, I thank our witnesses. And without 
objection, all members will have at least until the end of this 
week to submit additional written questions for extraneous 
material for the record.
    I now turn to Mr. Meeks, the ranking member, to have 
whatever opening statement he would like.
    Mr. Meeks. Thank you, Chairman Rohrabacher. And thank you 
for your remarks and organizing today's subcommittee hearing on 
the political trends in Turkey.
    As we all know, and as, I guess, clearly indicated even by 
the number of individuals that is in this room, Turkey is our 
important ally in an increasingly complex region. And, you 
know, I am grateful, especially grateful for the opportunity to 
take a look at Turkey again and again and again because that is 
how important our relationship is with Turkey.
    You know, when I first came into Congress, I looked at the 
number of countries around and the various regions, Turkey is 
truly an important ally and a country that I think that we have 
got to work with. And when you have friends, you should be able 
to talk honest and open with your friends. You know, it reminds 
me of some of the dialogue that we have here in the United 
States currently that is going on around our country and the 
talk is let's have a dialogue, and dialogue at times has to be 
frank.
    So when we look at some of the trends in Turkey, we see 
that some remain the same since our last hearing. Domestically 
President Erdogan continues to enjoy strong support but has not 
veered from his push toward the presidential system. The 
domestic conflict with the Kurds has not abated and is closely 
linked with the conflict in Syria. And as a result of the 
Syrian war, the refugee crisis in agreement with the EU has 
also remained a source of strain.
    On the other hand, there have been some other changes, some 
significant. A Prime Minister resigned in May. Terror attacks 
have struck the cord of fear, detracting tourists from visiting 
Turkey and further crippling their economy. These attacks test 
our resolve, our common values in an open society, and tip the 
balance between liberty and security.
    On the international front, Turkey and Israel recently 
signed a broad agreement to restore ties after a 6-year break, 
a step that I say that I welcome. Furthermore, Turkey's looking 
to restore relations with Russia, reopening a needed source of 
tourism. And yesterday, Prime Minister Yildilrum announced 
efforts to seek normalization with Syria, possibly presenting 
new opportunities for peace building and cooperation.
    Yet, where does that leave Turkish-U.S. and Turkish-NATO 
relations? And what can we do in Congress to make sure Turkey 
remains an ally and a friend and a trusted partner in the 
region? I believe it begins and ends with our commitment to our 
common principles and shared interests, and that brings us back 
to the democratic space in Turkey.
    We, in Congress, are indeed concerned with democratic 
progress in Turkey. I inquire about its state, as a concerned 
friend, as I said. I want to make sure--it is imperative to 
discuss the recent crackdown on the freedom of speech in 
Turkish universities and in the press. Tolerance in the face of 
domestic criticism is difficult, and regional events further 
complicate the situation.
    But nevertheless, we must fully defend the fight for 
academic freedom, for freedom of the press, and for the right 
of individuals to critique their governments, as difficult as 
that may be to hear. I say that here in the United States for 
the people of the United States, and I say that there for the 
people of Turkey, that they must have the freedom to express 
themselves.
    As we all know too well here in America, suppressing these 
voices only leads to an erosion of democracy, a hollowing out 
of society, and even an eruption of conflict. And as violence 
spreads across southeastern Turkey and into beautiful Istanbul, 
we are reminded of the delicate balance between security and 
liberty. Tragically, these are not isolated incidents. They 
serve to highlight the need for a path to peace in Turkey, 
Iraq, and Syria.
    So I too want, as the chairman indicated, send my 
condolences out to those who suffered losses at the recent 
attacks at the Turkish airport. We all looked with harrowing 
eyes as terror attacks took place there, and we wish and hope 
that the families--I know that they are undergoing tremendous 
loss and pain, and our prayers go up to them and their 
families.
    So I think that, Mr. Chairman, as I yield back to you, I 
hope that this hearing helps us to understand and bring a peace 
that is closer to our reality and help strengthen our 
relationship while we have some frank conversation and 
dialogue. I look forward to listening to the witnesses, because 
your testimony is important to me understanding and learning, 
and I think that, you know, those who are listening to this 
hearing, so that we can get information out, we can share and 
work together.
    Because the idea here is, when we have to be critical, 
let's be critical. But it is not just for the sake of being 
critical; it is for the sake of trying to make sure that we are 
all going to have a better tomorrow and better relationships 
between our countries and we can only do that with honest 
dialogue.
    And I yield back.
    Mr. Rohrabacher. Well said.
    Mr. Trott, do you have an opening statement?
    Mr. Trott. I would like to thank the chairman and ranking 
member for holding this timely and important hearing.
    I would also like to thank the witnesses for taking time to 
be here today.
    It seems like every time we try and hold Turkey accountable 
for their actions, their response is, but we are a NATO ally. 
Turkey certainly remains one of our allies, but that does not 
make them immune to honest and fair criticism. Turkey's 
insouciance to democracy and human rights under President 
Erdogan is disturbing.
    Just a couple days ago, Human Rights Watch reported that 
the Turkish Government is blocking independent investigations 
into alleged mass abuses against civilians across southeast 
Turkey. These abuses include heinous crimes like unlawful 
killings of civilians and mass force civilian displacement.
    I also remain concerned about the seizing of various 
Armenian churches in Turkey, including Surp Giragos in April. 
This is reminiscent of the events that led to the Armenian 
genocide over 100 years ago. And while I am discussing the 
genocide, I would like to applaud the German Parliament for 
overwhelmingly adopting a resolution calling the coordinated 
campaign to exterminate the Armenians in 1915 a genocide.
    All of us on this panel are lucky to be able to express our 
ideas freely and without fear of repercussions. Ordinary 
citizens and journalists in Turkey, however, do not have this 
privilege. Turkey remains one of the worst countries in the 
world when it comes to freedom of the press, and we got to see 
that firsthand in April when the President came to Brookings 
and his security repeatedly harassed, assaulted, and even 
reportedly tried to throw out media that they did not like.
    If this is how Erdogan's police act in Washington, one can 
only imagine how they act in Turkey. Mr. Chairman, Turkey's 
progress toward democracy is on a downward spiral. They are a 
country facing a myriad of issues, both domestically and 
internationally. Continuing down this disturbing path, when 
they are denying history, expropriating land, and severely 
restricting freedom of the speech, is not the answer.
    I yield back.
    Mr. Rohrabacher. Thank you very much.
    Ms. Gabbard, do you have an opening statement?
    Let me just note that tomorrow I will be submitting a Sense 
of the House resolution based on today's testimony and some of 
the statements that you have heard in working with my 
colleagues, a Sense of the House resolution expressing concern 
about the direction of various societal trends and governmental 
trends in Turkey.
    And so today, I would invite my colleagues to, at the end 
of this hearing, work with me on developing that particular 
Sense of the House resolution.
    Now with that said, I would like to thank our witnesses for 
joining us today. We have three distinguished witnesses. Dr. 
Henri Barkey was the director of Middle East Program at the 
Woodrow Wilson Center here in Washington. Formally, he was a 
professor at Lehigh--is it Lehigh?--Lehigh University and 
authored several books on Turkey and Kurdish issues and served 
as a member of the State Department's policy planning staff.
    We have Dr.--I am really bad at names--Fevzi?
    Mr. Bilgin. Fevzi.
    Mr. Rohrabacher. And----
    Mr. Bilgin. Fevzi Bilgin.
    Mr. Rohrabacher. There it is, okay. And is the founding 
president of Rethink Institute, a Washington-based think tank. 
He is an expert in the areas of constitutional and Turkish 
politics. He received his Ph.D. in political science from the 
University of Pittsburgh and has taught politics in both the 
United States and Turkey in addition to being a published 
author.
    And Alan Makovsky, I remember you. Makovsky, I have known 
that name before. There you go. A senior fellow at the Center 
for American Progress, a private think tank in Washington, DC. 
And from 2001 to 2013, he served as the senior professional 
member of staff here in the House Committee on Foreign Affairs. 
We were just reflecting on how neither one of us have changed 
over those 20 years. He helped us cover the Middle East and 
Turkey when he worked before us, and today he is here to, 
again, give us advice and some direction as to what our 
policies should be toward this situation now in Turkey.
    Before, of course, he did all this, he directed the 
Washington's Institute's Turkish research program and was an 
employee of the State Department.
    So we have three expert witnesses. And, Dr. Barkey, I would 
suggest we start with you. And I would request that, if we 
could, keep it down to about 5 minutes. All the rest of your 
statement will be part of the record for people to read, and if 
you could keep it down to the 5 minutes, we then could have a 
dialogue once all the witnesses have testified.
    Dr. Barkey.

  STATEMENT OF HENRI J. BARKEY, PH.D., DIRECTOR, MIDDLE EAST 
                   PROGRAM, THE WILSON CENTER

    Mr. Barkey. Thank you, Chairman Rohrabacher, Ranking Member 
Meeks, and members of the subcommittee. It is an honor to 
testify today, and I ask that my written testimony be admitted 
into the record, please.
    Mr. Rohrabacher. Without objection.
    Mr. Barkey. There is no question that when it comes to 
issues of free speech, due process, individual and civil 
rights, the situation in Turkey, has deteriorated significantly 
over the last 3 years. The atmosphere created by the ruling 
justice and development party and President Erdogan is not 
conducive to free discussion of ideas, policies, and politics.
    What I will try and do is give you essentially in bullet 
points what has happened and then try to offer you an 
explanation. First of all, you have all already alluded to the 
press. The press is under a tremendous pressure. It is a 
twofold sets of pressures: One is that you see journalists 
being fired, newspapers being closed, taken over, same thing 
happening to television stations, as well as social media. That 
is one aspect of it.
    The other aspect is that there is also simultaneously an 
attempt to build a parallel, if you want, press that is 
completely subservient to the President and the party. And it 
is essentially, when you look at that press on a daily basis, 
as I do, all you see is essentially the legal education of 
official propaganda, if you want, but most importantly, what 
you see is that there is no room for any discussion of any 
opposing ideas in that place.
    So the press is under enormous pressure, and it is not 
surprising that Freedom House has downgraded Turkey's status 
from partially free to not free, which is actually quite 
damning for a country that is a member of the NATO alliance.
    But the press is not the only one, and this is important to 
understand. Every institution of civil society in the State is 
also under attack with an effort to dominate. It is true for 
business associations. It is true for academia. Thirty-seven 
academics have been fired so far. But I know a lot of friends 
of mine who are under investigation, and more will be fired as 
time goes by, eventually to be replaced with people who are 
more conducive to the official position.
    Similarly, the judiciary is being revamped and to make it 
much closer to the government. Even individuals are not immune; 
1,845 individuals have been charged for insulting the 
President, some of the penalties are dire. So far nobody has 
gone to jail. And even former allies of Mr. Erdogan are under 
the same oppression.
    So why is this change? I mean, the interesting thing is 
that Mr. Erdogan and his party came to power, and in a 
paradoxical way it was the biggest and most important opening 
of the Turkish political system ever, since 1923, I would say. 
They came out against the military, they came out against 
traditional ruling elites, and for a while they ruled in that 
way.
    But they changed. They changed, I would argue, for two 
reasons: One is Mr. Erdogan has won victory after victory and 
he thinks he is invincible, but most importantly, he actually 
does feel vulnerable. He feels vulnerable because Turkish civil 
society is still quite dynamic, can resist, can disagree, and, 
as we saw in elections in 2015, actually defeat Mr. Erdogan. 
But Mr. Erdogan is the President not the Prime Minister. The 
Prime Minister has all the legal powers that the constitution 
gives, so he feels vulnerable in the Presidential powers, so to 
say.
    But fundamentally, I would argue, the real reason for the 
change is Mr. Erdogan's decision to not make peace with the 
Kurdish--the PKK and with the Kurds. In fact, he was making 
enormous progress in that direction, commendable progress. And 
he scuppered the peace negotiations after his own people had 
signed the document. And the reason he did it--and this also--
we won't have time for this--but explains the changes in 
foreign policy. The reason he did it is because of the threat 
it perceives from the Syrian Kurds, in Syria, as the Syrian 
Kurds, who have aligned themselves with the United States, make 
progress and move against ISIS.
    In the process, what he is afraid of is that a Syrian 
Kurdish entity that is closely aligned with the Turkish Kurds 
will emerge and therefore pose a strategic threat to Turkey. 
And he decided--this is the reason why he decided to 
essentially go on that rampage against the press, against the 
Kurds.
    And in some ways, it also explains the changes that you see 
today in foreign policy because, as he finds himself isolated, 
he is trying to reconfigure his friendships, or so he thinks, 
with the idea that he will come up with a common, shall we say, 
cause against the Kurds.
    And I will stop here. The red light has gone on.
    [The prepared statement of Mr. Barkey follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Mr. Rohrabacher. Dr. Bilgin.

 STATEMENT OF FEVZI BILGIN, PH.D., PRESIDENT, RETHINK INSTITUTE

    Mr. Bilgin. Chairman Rohrabacher, Ranking Member Meeks, and 
the members of the committee, thank you for the opportunity to 
testify before you today on Turkey's democratic decline. And I 
ask that my full written testimony be admitted into the record.
    It is fair to say that all the major political developments 
in Turkey in the last 5 years can be attributed to Recep Tayyip 
Erdogan's presidential aspirations. A de facto Turkish-style 
presidential system is already in place, where Erdogan appoints 
and dismisses Prime Ministers, shapes the cabinet, packs the 
court in bureaucracy with sworn loyalists.
    The final step is to make a constitutional amendment that 
will set the new regime in stone. Freedom of speech and freedom 
of press is under fire. Thousands of journalists were already 
fired since 2013. There is no mainstream media left, only a few 
daring but small outlets for dissent. Independent media outlets 
are seized or censured, and social media is routinely blocked.
    An important casualty of the Erdogan's political 
aspirations and Turkey's democratic decline is the community 
known as the Gulen or Hizmet movement. The government has 
targeted the movement especially since the outbreak of the 
corruption scandal in Turkey in December 2013.
    According to Erdogan and his lieutenants, the corruption 
allegations brought forward were, in fact, an insidious attempt 
to topple the AKP government. They claim that this was 
orchestrated by Gulen movement affiliates nested in the 
judiciary and police forces. The Gulen movement on the other 
hand has vehemently denied these allegations, calling them 
baseless accusations serving to cover up the corruption.
    The movement essentially is a faith-based network of 
individuals, organizations, institutions, inspired by the ideas 
of Turkish-Islamic scholar Fethullah Gulen, who is now residing 
in the United States. It subscribes to a moderate, Sufi version 
of Islam, along with emphasis on interfaith dialogue.
    In Turkey, the movement established private high schools in 
every town, mostly which became nationally ranked institutions. 
Graduates of these schools moved onto both the public and 
private sectors, many joined the government bureaucracy. The 
movement also launched influential media outlets in Turkey. The 
network showed noticeable efficiency, dynamism, defying the 
traditionally introverted and subdued culture of Turkish 
conservatism.
    However, the movement quickly overreached itself in Turkey. 
The sheer size of the network exposed it to the ill intentions 
of those who sought influence and leverage. A penchant for high 
politics in some circles seemingly undermined the message of 
tolerance and inclusion that characterizes the larger movement.
    The media affiliated with the movement, on the other hand, 
while promoting democratization, demilitarization of politics, 
and EU membership, alienated the foes of the AKP government, 
which in better days was pursuing those very same objectives. 
The reputation of the movement media was also tainted when they 
under-emphasized the irregularities and misconduct during the 
coup trials several years ago of military officers, 
journalists, and academics.
    The movement in Turkey now faces blanket persecution. 
According to the news, state news agency, as of July 2016, more 
than 4,000 individuals have been detained and about 1,000 have 
been sent to jail. The detainees are from all walks of life and 
include businessmen, doctors, teachers, journalists, academics, 
philanthropists, and even housewives. In addition, the 
government is taking over privatized schools and colleges, and 
charity organizations that were established by the movement 
participants.
    Businesses that have financially supported those 
initiatives are seized on a daily basis. Many have had to flee 
the country to avoid detention. The remaining hundreds of 
thousands of individuals that are ordinary citizens dedicated 
to education, charity, and service, and unrelated to the so-
called political struggle are awaiting their fate. The 
movement-affiliated media has been subjected to a violent and 
illegal takeover, including the highly circulated ``Zaman'' and 
``Bugun'' newspapers, and several TV stations, resulting in the 
firing of thousands.
    As an annual report published by the U.S. Department of 
State attests, Turkish courts have been going through political 
pressure in the last few years. As a result, people in the 
movement, as well as other dissidents, will not have a chance 
to stand a fair trial, despite very serious accusations leveled 
against them.
    Human Rights Watch stated that the persecutions for 
membership of an alleged Fethullah Gulen terrorist organization 
are ongoing, although there is no evidence to date that the 
Gulen movement has engaged in violence or other activities that 
could reasonably be described as terrorism. But the lack of 
evidence of criminal activity did not prevent the government 
from designating the movement as a terrorist organization. This 
move allows the government to implement harsher antiterrorism 
laws for Gulen movement cases.
    The Turkish Government also continues to harass the 
movement outside Turkey. The foreign governments are pressured 
to shut down schools and other institutions affiliated with the 
movement in their countries. The Turkish Government has long 
sought Gulen's extradition to Turkey from the United States. 
Thus, they launched a litigation campaign against the movements 
affiliates in the United States, and most recently, a U.S. 
Federal judge dismissed such a lawsuit in Pennsylvania.
    And thank you.
    [The prepared statement of Mr. Bilgin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. You are next.

   STATEMENT OF MR. ALAN MAKOVSKY, SENIOR FELLOW, CENTER FOR 
                       AMERICAN PROGRESS

    Mr. Makovsky. Thank you, Mr. Chairman.
    Mr. Chairman, Mr. Ranking Member, members of the 
subcommittee, it is an honor for me to testify before you 
today. As you said in your introduction, I worked here for 12 
years as a staffer, from 2001 to 2013. And knowing the----
    Mr. Meeks. Is your mike on?
    Mr. Makovsky. Oh, I am sorry. Now it is.
    Mr. Rohrabacher. You should have known that more than 
anybody.
    Mr. Makovsky. I have never been on this side of the table 
before, sir. I was always a quiet staffer in the background.
    Mr. Rohrabacher. Go ahead Alan.
    Mr. Makovsky. Anyway, I just wanted to say that as a former 
staffer and knowing the great importance accorded hearings such 
as these, I am deeply privileged to have been invited to 
testify and I thank you.
    I respectfully request that my written testimony, as 
submitted, be entered into the record.
    And I would like to join you, Mr. Chairman, in the 
condolences you offered to the Turkish people on the June 28 
attack on the Ataturk Airport.
    The title of this hearing, ``Turkey's Democratic Decline,'' 
sets out the problem: Turkey's democracy, never as good as it 
should have been, is indeed rapidly deteriorating. On virtually 
every front, media, judiciary, political governance, Kurdish 
rights, private business, universities, as my colleagues here 
have all detailed, freedom is diminishing and power is being 
concentrated in President Erdogan's hands. Arguably not since 
the death of Turkey's founder, Mustafa Kemal Ataturk, and 
certainly not since the advent of free elections in Turkey in 
1950, has one man held so much power in the Turkish system.
    President Erdogan's primary focus, perhaps more correctly 
his obsession these days, is to formalize a Presidency-based 
system in Turkey in place of the longstanding parliamentary 
system. His second and third-ranking priorities, probably in 
that order, are ridding Turkey of any Gulenist influence, real 
or imagined, and defeating the PKK and, related to that, 
quashing any Kurdish movement for collective rights.
    Certainly, because of the horrific terrorism staged by ISIS 
over the past year in Turkey, I have no doubt that fighting 
ISIS has also become more of a priority for Turkey, and Turkish 
officials now speak of the importance of fighting ISIS and the 
PKK simultaneously. But I don't believe that President Erdogan 
yet sees ISIS as quite as serious a threat to his power and to 
Turkey as he sees the Gulenists and the PKK.
    I know there is already a lot of overlap in this testimony, 
and I don't want to do another catalogue of all the human 
rights abuses. Let me throw out, on freedom of the press, yet 
another NGO's report. Reporters Without Borders, in its 2016 
World Press Freedom Index, actually ranks Turkey just 151st out 
of 180 countries--three slots behind Russia, by the way. So it 
is not a positive record. Another study has said that 70 
percent of the Turkish print media, and a similar portion of 
the electronic media, is now a mouthpiece of the government, 
either owned directly or slavishly supportive of the 
government.
    I know my time is rapidly diminishing here, so maybe--look, 
you know, I would like to say a little more about what is going 
on with the Kurds. I think----
    Mr. Rohrabacher. You have time. Please do.
    Mr. Makovsky. Ranking Member Meeks, you very specifically 
in the last hearing in February--you talked about the 
importance of dialogue today and you analogized it to the civil 
rights movement in this country, which I am certainly old 
enough to remember and to have been a small part of.
    Look, I think what is going on--the assault on the Kurds in 
the southeast is a terrible mistake. The PKK is not blameless. 
It was a mistake for them to declare autonomy in various zones, 
to goad the Turks. It was a mistake for them to build up their 
weapons during the ceasefire.
    But the response of the Turkish military, I think, has 
really caused tremendous destruction, dislocation that at one 
point created several hundred thousand displaced persons within 
Turkey. That fact got very little publicity. And we saw some of 
the pictures, such as from Cizre that reminded us of pictures 
from Kobani. Again, I don't think the PKK is blameless, but I 
think the approach that Turkey has taken is completely wrong 
and has alienated the Kurdish population and made it more 
difficult to enter into that dialogue that you spoke about.
    In my written testimony, I speak a bit about what the 
future should be of U.S.-Turkish relations. And I don't have 
time--I don't know if I have time to just quickly list a couple 
of the principles, but----
    Mr. Rohrabacher. We will get it in the questions. There you 
go.
    Mr. Makovsky. Okay. I will be happy to end it there. Thank 
you very much.
    [The prepared statement of Mr. Makovsky follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Rohrabacher. All right. My first question is, what were 
you just going to say?
    Mr. Makovsky. Well, first and foremost, Turkey has always 
been an ally valued for its strategic location, which has been 
the center-piece of our bilateral relationship. The more 
pressing our need for access to Turkish bases, most famously 
Incirlik Air Force Base, the greater Turkey's leverage in our 
bilateral relationship.
    And of course, when we are fighting a war, as we are now 
against ISIS, that need for access is quite pressing. It can be 
tempting therefore not to say much publicly about Turkey's 
democratic shortcomings out of concern that Ankara's response 
will be to deny us access.
    It is important to do our best not to give in to that 
temptation, lest we appear cynical about our own values, lest 
we de-spirit those many Turks who look to us for support on 
legitimate issues of freedom. At the same time, when we 
criticize, we should criticize as a friend, as you said, Mr. 
Chairman, not as an antagonist.
    Perhaps we might think of the following principles: First 
of all, we should be fully supportive of Turkey regarding 
external threats. I think it was a mistake for us to withdraw 
Patriots from southern Turkey last fall just as the Russian 
buildup in Syria was starting. I think we should make more port 
visits in the Mediterranean, as I have heard requested from 
Turkish officials.
    Second of all, we should be supportive in principle, as we 
already are, of Turkey's right to defend itself against the 
PKK, which is on our terrorism list because it has killed 
civilians.
    But the Turkish assault on several cities and towns in its 
southeast, as I said, has created mass suffering and deep 
alienation that only complicates Turkey's relations with its 
Kurdish population now and in the future. We should speak out 
strongly against abuses of freedom of the press and politically 
motivated arrests in Turkey. I know President Obama and Vice 
President Biden have made important gestures in that regard 
this year.
    And thirdly, we should also strongly support the right of 
the Kurds to cultural freedom and democratic expression. That 
means speaking out about all Turkish Government efforts to 
quash the Kurdish movement by criminalizing freedom of speech, 
removing the Kurdish presence in Parliament, again, as we have 
heard already, and by using excessive force that amounts to 
collective punishment.
    If I could, Mr. Chairman, just quickly add, I do think we 
have to prepare for a better day also. I know that NDI and IRI 
have some important freedom-supporting programs in Turkey, and 
I think it is important that those be supported.
    Mr. Rohrabacher. We will note that. And I think that it is 
always important for us when we are dealing with a country that 
has been so close to us, and such a friend, that whenever there 
are some very noticeable areas of conflict where we disagree 
now and we are not operating, that we make sure we do our very 
best to confront those issues in a way that will facilitate 
more friendship rather than driving a country away. And that is 
hopefully what we are doing today.
    Where does the panel come down on this, the fact that 
Turkey now has apologized to Russia on shooting down the plane? 
Let me just note that I was horrified that they shot the plane 
down in the first place, and now they are apologizing for it. 
What is that all about? And what is all this about where we 
have--Turkey has made very, how do you say, hostile moves 
toward Israel in the last few years and now it seems to be 
reaching out to go the opposite direction. What is the take of 
the panel on those two things, Doctor?
    Mr. Barkey. Well, first of all, I would say that in the 
Russia case it was very clear that they had made a huge mistake 
and they had paid a very big price economically with the 
collapse of tourism. Tourism collapsed because of the violence 
and the terrorism but also because of the Russians.
    The deal with Israel is actually more interesting. I don't 
think it is a real warming up of relations. It is more 
cosmetic. But fundamentally, it is not about improving 
diplomatic relations but it is about gas. Eventually, the Turks 
want--and the Israelis also very much are pushing for a gas 
pipeline from the Israeli gas fields, which will go through 
Cyprus and then to Europe. And, in fact, there is a way in 
which this is a good sign, because that means that maybe the 
Cyprus is--there will be a deal in Cyprus, that we will be 
moving toward a Cyprus settlement.
    But the unfortunate aspect of this is that this charm 
offensive has, especially with Syria now, has another downside. 
It has a major downside to it. And it is possible that he is--
Erdogan is going to double down on the PYD in Syria and on the 
PKK in Turkey in a way in which he--Erdogan sees the PYD as 
essentially the most important threat to Turkey, because he 
thinks because the PYD is a creation of the PKK, that you will 
have essentially a front, a Kurdish front.
    Paradoxically, the Turks, who used to be very opposed to 
the KRG, to the Iraqi Kurdish movement, are now very close to 
it. They could have done the same thing with the PYD. The PYD 
was looking to establish relationship with the Turks. But for 
Erdogan, he made a strategic decision, and all this charm 
offensive now, all this moving on, I fear, is for a doubling 
down on the anti-PYD policy.
    And I think that is going to be problematic for us given 
the fact that we have now a relatively robust alliance with the 
PYD in fighting against ISIS. And that is the thing we need to 
watch, I think, much more carefully than anything else which 
have immediate repercussions.
    Mr. Rohrabacher. My time is used up now, and we will have a 
second round.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    Thank you for your testimony.
    And I just want to see if I can get some further 
understanding domestically what is going. And you are right, as 
I was trying to identify in the past, talking about some of the 
lessons learned from us in the United States and what has taken 
place, it is the prism from which I work.
    So for example, when someone tells me that the Turks are 
trying to pack the court, I don't get too upset at that because 
we are trying to pack the courts here also, you know. That has 
been the big issue here, who is going to win this election so 
that the Supreme Court--it makes a difference. So that I am not 
upset about.
    But I am upset about when there are journalists and others 
who want to express what their views are and that they are 
incarcerated as a result of that. And/or when there is the big 
debate, which my question is now, that is taking place about 
constitutional reform process of which I am not clear on.
    So I know that there is some renewed talks about the 
constitutional reform process. I know it took place there 
prior, in 2012, and things broke down. So my question is, where 
are we now, and what is at stake in regards to this dialogue 
internally in the prospects for greater instability internally 
in Turkey, and how will that affect us as an ally?
    Mr. Bilgin. Well, let me just interject here. The 
constitutional reform is an important aspect of the last really 
several years of Turkish politics, as I mentioned, that it has 
all started with Erdogan's presidential aspirations. 
Technically, nobody understands why presidentialism is needed 
in Turkey.
    But the first attempt to reform constitution in 2012 
collapsed because of that interjection of presidentialism as an 
AKP proposal. And, now after that, several other elections that 
AKP and Erdogan won and now it is on the table again. And what 
is being demanded or what is being aimed is to build a regime, 
which is called presidential regime, but in actuality it is a 
one-man rule where, you know, somebody will be an elected 
autocrat with unbridled executive power. That is what it will 
end up with, and that is why it is very controversial.
    So the system is parliamentary system at the moment. And 
normally, as we heard before, the Prime Minister is the 
executive, chief executive of the government. But there was 
just a switch of Prime Ministers last month, and everybody 
forgot about that already, I think, because everybody knows who 
is pulling the threads.
    And people are afraid, are concerned that, you know, as 
Erdogan--as powerful as he is now, how is he going to be when 
he is an elected President with all these powers. So that is a 
major concern. And the timeline goes, either we need a 
constitutional amendment in the Parliament or a referendum.
    Mr. Meeks. Let me just ask then maybe, Mr. Barkey, given 
that--could there be--if, you know, there is talk about a 
constitutional reform process, you know, could it be a fair 
election or not? I mean, I have recently just seen what took 
place in the U.K, whether they are going to, you know, stay 
into the EU or not. But that seemed to be an open and a fair 
election.
    So are you saying that there cannot be an open and fair 
expression of the people of Turkey, that it will be so weighted 
down because of the heavy handedness of Mr. Erdogan that it 
won't be transparent and clear? Is that----
    Mr. Barkey. Look, in Turkey, historically, elections have 
been clean and people have enormous amount of trust in the 
electoral process. But for the first time now, that faith in 
the electoral system is disappearing very quickly, and it is 
clear now that you will not get fair elections anymore. There 
are enough people who are now saying that the system is rigged.
    The AKP gets enormous amount of money from contributions 
from businesses that get funneled so that it can use for 
elective purposes. The difficulty with press is completely 
controlled now. [Microphone off.] You have 70 percent of that 
being even higher, but by the government and its allies, 
therefore you cannot have free elections or should we say fair 
elections. Free elections, yes, but fair elections, which is 
really contrary to--since 1950 a process of free and fair 
elections.
    Mr. Meeks. My last question on this round then would be, 
would you say that is the fact that the outside, what is going 
on in Syria, what is going on with the PKK, what is going on 
with the PYD, does that have an effect domestically also on 
whether or not the Turkish people allow, you know--well, the 
authoritarian policies to increase that it seems to be 
happening now in regards to Mr. Erdogan?
    Mr. Barkey. Well, unquestionably. Whenever you have--you 
can pose the PKK, the Kurdish threat as an alien threat, and 
that allows you to clamp down obviously on freedom of speech; 
therefore, that affects the elections, I mean, by definition. 
And if you go to the southeast, I mean, in the Kurdish areas, 
you have this amazing military presence, you have this amazing 
oppression that you see.
    So yes, I mean, the notion of--plus people have been 
displaced, 500,000 people have been displaced. When are they 
going to vote? How are they going to vote? Are they going to be 
able to vote? What happens to the Syrian refugees? Will they be 
able to vote? I mean, there is all these things now going on 
that has undermined people's confidence in the electoral 
process.
    Mr. Meeks. I have a question for you in the next round.
    Mr. Rohrabacher. Mr. Trott.
    Mr. Trott. Thank you, Chairman.
    My questions are to the entire panel, and anyone can feel 
free to opine. I wonder if anyone could give me insight into 
what the status of the Armenian churches that were seized by 
the Turkish Government and what the status of the churches are 
at this point.
    Mr. Makovsky. Congressman, the only one that I am 
personally familiar with--maybe my colleagues know more--is the 
one that is located in the Sur district of Diyarbakir. Right 
now the whole district is essentially closed, so no one can 
have access to the church, including worshipers.
    Mr. Trott. Okay. Thank you.
    With respect to the Muslim brotherhood, so they have been 
shunned by much of the Middle East, but the President has 
chosen to embrace them and is still controlling channels on 
television. What is the reason behind that, and why shouldn't 
we be concerned by that?
    Mr. Bilgin. The Muslim brothers, there was a support for 
Muslim brothers, it was a part of a general policy of the 
Turkey's Middle East policy to basically support these 
opposition elements that kind of seem a little--look like AKP. 
And now, as you said, some Equfan elements were residing in 
Turkey. And now it seems that Turkey's ready to make a shift 
again, making a peace with General Sisi so that it is likely 
that they will be kicked out soon, I mean, of Turkey.
    Mr. Barkey. I don't think ideologically that Mr. Erdogan 
has changed his mind about the Muslim brotherhood. I think he 
is very sympathetic to them. He is very quick on his feet. I 
mean, he changes policies when those policies don't work for 
him, and clearly he has decided now a rapprochement with Egypt 
and with Israel, given that Hamas is also part of the 
brotherhood is convenient for him.
    But I would say that fundamentally, in terms of where his 
loyalties and where his preferences lie, they are with the 
Muslim brotherhood. So what you will see is probably policies 
of dissimulation other than real change when it comes to this 
issue.
    Mr. Makovsky. Just as a historical matter, when the Sisi 
takeover happened, it was in the middle of major demonstrations 
going on in Turkey. I think it brought out Erdogan's paranoia, 
both in terms of his fear that something immediate from these 
demonstrations might happen and also based on Turkey's history. 
I think he has always been concerned about the possibility of a 
military coup.
    And so I think that is what it reflected. But I do agree 
with Henri that I don't think we are likely to see him change 
his spots anytime soon. And I am skeptical that things will 
move forward on relations with Egypt anytime soon. His foreign 
minister has talked about it, but Erdogan made some very strong 
anti-Sisi statements after the foreign minister spoke.
    Mr. Trott. Thank you.
    And then lastly, with respect to Turkey's priorities in 
Syria, and how do they align with the United States and where 
do they diverge generally?
    Mr. Barkey. Well, they have--at the beginning, we were on 
the same page. We both thought that Assad would leave in 6 
months. When that failed and when the opposition failed to come 
up with serious resistance to Assad, you saw Turkey's support 
for Jabhat al-Nusra increase. And this came to a boil in 2013 
when President Erdogan visited the White House. He was 
confronted with that. He was asked to stop supporting Jabhat 
al-Nusra.
    The problem is that in the process of supporting Jabhat al-
Nusra, a major infrastructure of jihadist supporters was 
created in Turkey, who funneled people and arms to Jabhat al-
Nusra with government support but also people who went to ISIS.
    But where we are now today, for us, priority number one is 
ISIS; for Erdogan it is the PYD then Assad, and then ISIS. So 
in that sense, in there, we are not on the same page. For him, 
both the PYD and Assad, even though he is talking about 
overtures to Assad, are far more important and far more than 
the jihadist threat.
    Mr. Makovsky. Just to elaborate a bit, I agree on the 
divergences. His primary focus is the Syrian Kurds and Assad. 
Ours is defeating ISIS. He wouldn't mind if ISIS is defeated in 
the process, but it is not his priority.
    Second of all, and I think it is the number one issue in 
U.S.-Turkish relations right now, is the fact that we are 
working closely with the YPG, with the Syrian Kurds, which he 
considers part of the PKK. And indeed, he has some reason to 
see their origins in the PKK. And from his point of view, it is 
U.S. support for a terrorism group.
    And, as I say, I noticed in a respected Turkish polling 
company survey this month, Metropoll, 73 percent of Turks said 
that the U.S. sides with terrorists against Turkey. It is a 
very disturbing kind of answer, but I am certain that what it 
is about is this disagreement about the YPG.
    Mr. Bilgin. Yeah. Congressman, despite repeated bombings 
committed by ISIS in Turkey, an enormous threat that is posed 
by the domestic operatives, which may number to like in 
thousands, so far very few ISIS members were arrested and no 
one has been convicted out of terrorism or something so far. So 
this is kind of unbelievable basically, given the fact that, 
you know, Turkey has been bombed like one after another, latest 
in Istanbul Airport. Maybe Istanbul Airport may change the 
situation.
    Mr. Trott. Thank you very much.
    Mr. Rohrabacher. All right. And now Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Mr. Makovsky, your last comment about the poll is 
interesting, because as we look at Dr. Barkey's comments about 
Turkey arming and directly aiding al-Nusra, which is an al-
Qaeda affiliate, this goes to the crux of the question of our 
relationship with Turkey, as our number one priority is, and 
should be, defeating ISIS, al-Qaeda, and these other jihadist 
groups. Turkey is directly and has indirectly been supporting 
them now for years.
    So, you know, each of you in your opening remarks spoke 
about Turkey's democratic shortcomings, lack of freedom of the 
press, lack of due process, freedom of speech, individual and 
civil rights violations. We saw last year how the election went 
and really how the process was manipulated to benefit Erdogan.
    We see a direct contradiction in Syria with Erdogan's 
continued fixation on getting rid of Assad, bombing the Kurds 
who have been without dispute our most loyal, dependable 
partners on the ground fighting against ISIS. Turkey's actions 
have directly strengthened groups like ISIS, al-Qaeda, and al-
Nusra.
    The question is, you know, Turkey is a NATO partner and 
they claim to be an ally. When you look at all of these issues, 
both with democratic values as well as objectives that are 
directly counterproductive to ours and threaten our security, 
how can you make the argument for NATO--for Turkey to maintain 
its status as an ally?
    And the follow-up to that is, do you see the current 
government--do you see a path forward for Turkey being capable 
of or even interested in changing their policy so that they can 
actually truly be an ally and a partner?
    Mr. Barkey. This is the $64,000 question. It depends a 
little bit on the position we take in U.S. Government. Look, I 
spent time in U.S. Government and I follow U.S. policy 
carefully. We tend to always shy away of pushing very hard with 
the Turks.
    Because we are always afraid that because we have so many 
issues on a daily basis, Turkish and American bureaucrats talk 
on 1,000 different issues. We are very close allies, and there 
is a constituency for this alliance in Turkey.
    But the problem, I think, is that before Erdogan and with 
Erdogan, we have very early stood our line. Let me just say, 
look at Putin. Not that I want to place Putin here. But he 
stood his ground with Erdogan and Erdogan had to essentially 
capitulate. It reminds me what an Arab diplomat told me in 
Iraq, this year, he said, we hate what Putin does, but we love 
the way he does it.
    Ms. Gabbard. Can I just ask you a follow-up. You said we 
have very rarely, if ever, stood our ground against Turkey.
    Mr. Barkey. Right.
    Ms. Gabbard. What is this source of this great fear that 
would cause the United States of America to cower in fear and 
not standing our ground?
    Mr. Barkey. Look, there is always the basis. There is the 
NATO relationship. There is the ability of--I mean, we are too 
integrated with Turkey. And in general, the bureaucracy is very 
much afraid.
    The decision to support the Kurds, in Syria, at the time of 
Kobani, was taken by the President against the position of 
his--the State Department and the White House allies--aides, 
right. They were saying, oh, the Turks will be very upset. He 
did it. And look at the benefits because the Turks were not 
opening the bases to the U.S. until then. Once they realized 
that we were aligning ourselves with the YPG, suddenly they 
opened the bases.
    So there is a way in which we can send Erdogan a message. 
Look, if Turkey is an ally, even if Erdogan is problematic, 
even if there are lots of people in Turkey--but at the core, 
this is a long-term relationship which we have not known how to 
manage well.
    Mr. Makovsky. I think the reason for U.S. reticence is 
because Turkey is such a strategic ally, because of its 
location.
    Mr. Rohrabacher. Is your mike on?
    Mr. Makovsky. It is.
    I think we have been concerned that if we speak out, that 
we will lose access to important assets like Incirlik Air Force 
Base. And I think that is what has inhibited us. Just the same 
way the EU, which used to be the strongest advocate of human 
rights in Turkey, has largely been silenced because of its 
concern about the refugee issue and Turkey's ability to 
manipulate that.
    I think we have been, over the years, concerned about 
Turkey's ability to manipulate our access to what is, after 
all, its sovereign territory, Incirlik Air Force Base and other 
facilities. I think we do have to consider--I hope this is 
going on somewhere in the government--whether there are other 
assets in the region that at least over the long term could be 
employed in the way that Incirlik is now, almost solely is in 
Turkey, and so that we could lessen our dependence on Turkey.
    You asked will they change? I don't think that is the 
trend. I think the trend is toward greater independence, partly 
because if you look at the whole history of our alliance with 
Turkey, it has been one of growing Turkish independence. They 
started off as a very impoverished Third World country and now 
they are an upper middle income country, as classified by the 
World Bank. So there has been a normal trend whatever the 
government.
    Second of all, you have a government which is right now--
which is very critical of us, and of the West, and has shown 
very anti U.S. reflexes. I don't think we are going to get--I 
don't think we are going to see any change under this 
government.
    Mr. Rohrabacher. Mr. Weber.
    Mr. Weber. Thank you. Mr. Chairman, can we turn the air-
conditioner down or on? Apparently this is a hot topic. Gosh, 
where do we start? Mr. Makovsky.
    Mr. Makovsky. It is fine. Alan would be sufficient.
    Mr. Weber. You don't care what we call you, just call you 
for dinner.
    So you said something about the Syrian--his main concern--
Erdogan's, was the Syrian Kurds, was it ISIL or Assad you said?
    Mr. Markolsky. Erdogan's main concern?
    Mr. Weber. Correct.
    Mr. Markolsky. Erdogan's main concern right now is the 
Syrian Kurdish movement.
    Mr. Weber. Okay.
    Mr. Makovsky. But closely related to that, it is getting 
rid of Assad.
    Mr. Weber. It is Assad.
    Mr. Makovsky. Assad, yeah. And that is really--the Syrian 
Kurdish problem is something new, but our divergence over 
whether it should be Assad or ISIL as a priority has been going 
now for several years.
    Mr. Weber. Okay. And I came in late, so some of this may be 
redundant. Forgive me. One of you said, and I think it was you 
that said a respectable poling institution in Turkey was 
Metropoll?
    Mr. Makovsky. Yes.
    Mr. Weber. Give me the results of that poll again.
    Mr. Makovsky. Yes, they asked--I am getting this 
approximately right, in the fight with terrorism, who do 
Western countries like the U.S. and Germany side with, Turkey 
or the terrorists? And 73 percent said----
    Mr. Weber. This was in Turkey?
    Mr. Makovsky. Yes.
    Mr. Weber. Inside Turkey?
    Mr. Makovsky. Yes. Seventy-three percent said the West side 
with the terrorists.
    Mr. Weber. So much of I am reading is about how he has done 
away with opponents, starting with Fethullah Gulen and the 
press, and he has, you know, put a lot of them in prison. He 
just seems to oppress everybody who disagrees with him. How 
does this polling organization get to apply its trade about him 
with them under his thumb?
    Mr. Makovsky. Well, I think there are still pockets of 
independent expression in Turkey. As far as I am aware, these 
polls are done independently. I could see why you might think 
from that question that it was manipulated, but if you went 
through the whole survey you might not think that.
    Mr. Weber. Okay. So, so far you don't believe that they are 
under his thumb?
    Mr. Makovsky. This particular polling company? Look, I 
don't think so because they called the 2015 elections 
essentially correctly. I think they have shown themselves over 
the years to be essentially----
    Mr. Weber. Okay. Over how many years?
    Mr. Makovsky. Well, they have been at it that I have been 
aware of for at least, I think, a dozen years.
    Mr. Weber. He has let them continue even in that length of 
time?
    Mr. Makovsky. Yes. I mean people say different things about 
these polling companies whether they are closer to or further 
from the regime. People do not currently say that this polling 
company is close to the regime.
    Mr. Weber. Okay. Okay, fair enough. I think you said in 
your comments one of you did, I have been reading through the 
comments that he probably more closely wanted a Putin style 
system.
    Mr. Makovsky. That was me.
    Mr. Weber. That was you, okay. And then you also said I 
think it was Dr. Barkey that Turkey has been busy, or maybe it 
was in response to my colleague down on the left, from Hawaii, 
that Turkey has been arming al-Nusrah.
    Mr. Barkey. Was.
    Mr. Weber. When did that stop?
    Mr. Barkey. It is not completely clear. I mean we asked 
them in 2013 to stop, but it took a while for them to stop. But 
it is a lot of informal networks that are independent of the 
government that still continue to support both al-Nusrah and 
ISIS. I mean when you think of the bombing in Istanbul the 
other day, it could not have happen if they did not have 
domestic help.
    Mr. Weber. Right.
    Mr. Barkey. But that is not the government. That is 
networks that were created at some time, at some point with the 
government.
    Mr. Weber. But if the government turns a blind eye he is so 
busy after the news stations and the people like the Gulen and 
others, then those who are perpetrating this kind of violence 
kind of run amok, doesn't they?
    This is a question for all three of you really, are there 
any other countries that you know of NATO, EU or in the United 
Nations, who you see this kind of power grab going on in any 
other country? Power grab, in other words, where they are 
shutting down the press, they are dealing with all the 
dissidents, they are----
    Mr. Barkey. Unfortunately the list is quite long.
    Mr. Weber. Okay. Nothing in the list is quite long of 
people or countries?
    Mr. Barkey. Countries. I mean, of leaders in countries 
where you see this.
    Mr. Weber. You see this same kind of action that you see 
from Erdogan in other countries. Name one.
    Mr. Barkey. Hungary.
    Mr. Weber. Hungary. There is one. Name two.
    Mr. Bilgen. Venezuela during Chavez.
    Mr. Weber. Venezuela, okay. Don't miss my question. In the 
EU, in the U.N. or in--NATO, EU or U.N., any of those 
countries?
    Mr. Barkey. U.N. includes everybody so you can go Zimbabwe, 
you can go Ethiopia. There is a whole series of countries. You 
are not going to run out of countries.
    Mr. Weber. This level of corruption you would equate those?
    Mr. Barkey. Yes.
    Mr. Weber. That is interesting.
    Mr. Bilgen. There is rising trend of authoritarianism in 
the world at the moment too. So that means Turkey is part of 
that, it extends even to Hungary, which is part of the European 
Union.
    Mr. Weber. So you all's testimony today is that you don't 
put Turkey at the top of that. You can equate those with other 
countries.
    Mr. Makovsky. I think, Congressman, if I could----
    Mr. Weber. Yes, this is a question for all three.
    Mr. Makovsky. I think that the Reporters Without Borders 
ranking that I mentioned is very useful in that regard. There 
is no other NATO or EU country listed below Turkey. They listed 
them 151st out of the 180----
    Mr. Weber. Yeah, three behind Russia. I came in late so I 
didn't hear you testimony.
    Mr. Makovsky. That is correct, three behind Russia.
    Mr. Weber. Three behind Russia
    Mr. Makovsky. Yes.
    I am not an expert on Hungary and no doubt I have read 
enough about it to know though there are some authoritarian 
trends going on there, but in Turkey I think it has reached 
very severe proportions, particularly recently with new laws 
that will increase his power over the judiciary and possibly 
over private enterprise as well.
    Mr. Weber. Okay. And Mr. Chairman, I am out of time. If you 
are in a hurry I have one other question.
    Mr. Rohrabacher. Go right ahead.
    Mr. Weber. Actually, I have three other questions, since 
you opened the door. He was easy, wasn't he?
    So there was a 16-year-old in one of your notes, a 16-year-
old boy, who called him a criminal or something? A 15-year-old 
boy?
    Mr. Makovsky. A thief, 16.
    Mr. Weber. A 16-year-old called Erdogan a thief and he 
wound up in jail. What is his status?
    Mr. Makovsky. He was released. If I recall correctly, he 
was never--it never actually came to trial, but I believe he 
was held in jail for 4 days.
    Mr. Weber. Are the two of you aware of that case?
    Mr. Makovsky. Yes. Am I right, 4 days?
    Mr. Bilgen. Yes.
    Mr. Barkey. I don't know that case. I know----
    Mr. Weber. You don't know that case. So from what you heard 
Mr. Makovsky say is that a travesty?
    Mr. Barkey. Oh, yes. I mean 1,825 people have been 
prosecuted for insulting the President.
    Mr. Weber. Eighteen-hundred forty-five--now I also read a 
quote where who was it, Erdogan said to the Organization of 
Islamic Cooperation meeting in Istanbul, and you may have 
quoted this Mr. Makovsky so forgive me if it is redundant, he 
said that Westerners<greek-l>, quote, deg. ``Look like friends 
but they want us,'' speaking about Muslims, ``dead. They like 
seeing our children die.'' Is that on video?
    Mr. Makovsky. That is a good question. I have not seen it. 
I read it in the Turkish press, in both Turkish and English. 
The English quote that I used came from the Turkish press--the 
English-language Turkish press. But I don't know whether it's 
on video or not.
    Mr. Weber. And does----
    Mr. Makovsky. Could I add?
    Mr. Weber. Yes, sir.
    Mr. Makovsky. On the issue of the article 299 which 
criminalizes insulting the Presidency, I thought maybe, if I 
could, just quickly give you a little context. That is not an 
Erdogan creation. That has been there since the 1920s. That law 
has been forever in the books, but it does seem that Erdogan 
has used it far more frequently than any other President. And 
just as a point of comparison--and this is based on another NGO 
study--his predecessor used it 139 times. His predecessor save 
one, 26 times. He has been using it an average of over three 
times a day, through March 1st. That 1,845 figure was through 
March 1st and that is the Turkish Government figure.
    Mr. Weber. Thank you very much for your answer.
    Mr. Chairman I yield back.
    Mr. Rohrabacher. All right. It is th intent of the chair to 
have a sound round. And I will proceed.
    And let me just note so far, and what we came into this 
room understanding, there seems to be a very negative trend 
going on in Turkey. We have tried we had several hearings, 
trying our best to reach out and try to let the people of 
Turkey know, the Government of Turkey know that the United 
States and the people of United States are grateful for the 
friendship that they have shown and really are grateful for the 
role that Turkey has played over the last several decades. 
However, that trend is very easy to see. There is a cycle of 
tyranny and a cycle of radicalization that seems to be going on 
in Turkey that is frightening about where that could lead.
    Take a look at what has happened in Pakistan, another 
country that is strategically located, a friend of ours in the 
cold war, and what has happened in Pakistan? You have a vicious 
radicalization with various elements in their society in which 
you have terrorists--a home base for terrorism, not only in 
their own country where they are repressing their people with 
radical Islamists, but also engaging in terrorist acts that 
might even be traced to the Istanbul airport for all we know, 
because they have been immersed in this.
    But yet trying to reach out--we still give aid to Pakistan, 
even though they are doing this stuff. So I do not believe that 
what was happening in Turkey is going to lead to a dramatic 
departure of our relations, but it might evolve into something 
that is a nightmare like as what has happened in Pakistan and 
our relations today.
    Let me ask this question of the panel, does anyone on the 
panel have any information about, or believe, that Turkey was 
involved with taking weapons from Libya and sending them to 
Syria? Does anyone on the panel know anything about that? I am 
just probing here.
    Mr. Makovsky. I have heard that charge made, but I----
    Mr. Rohrabacher. All right. But nobody has direct 
information about it?
    Let me just note that there are other--it would be a 
disaster for us to lose Turkey as a military partner, but there 
are other countries around that have air bases in that region. 
I mean Erbil itself could serve as a base for military 
operations so that Kuwait and any number of countries right 
there could provide what now is provided by Turkey. What would 
be bad is to make sure the dynamics that are created by such a 
large country with significant resources and people going in 
the wrong direction.
    So with that, let me ask this, and one of the things that I 
find just--it is hard for me to understand this but it has 
happened in other countries as well, and that is when you have 
the President of this country, but now the permanent Prime 
Minister, now the President whatever you want to call him, his 
whole political base was established with a Gulen movement. Am 
I pronouncing it right Gulen?
    Mr. Makovsky. Gulen.
    Mr. Rohrabacher. The Gulen movement. And as far as I can 
see and I have studied what they believe and I have talked to 
some people in that movement, they tend to be people who have 
high values and are looking for a more open and you say 
tolerant Islam. That would be very admirable type of--by the 
way, it would be the equivalent of the Rotary Club in the 
United States. In essential you have a philosophy of helping 
other people who also are politically involved and involved in 
the community efforts to help people.
    How is it that the Gulen movement now has been declared 
public enemy number one by the man who they were actually 
helped put into power, and over the years has been one of the 
chief sources of support. How did that come about?
    Mr. Barkey. I would like to say something about the Gulen 
movement. I mean the Gulen movement, I agree with you, has an 
image of tolerant Islam. Yes they were allied with Erdogan. 
When Erdogan came to power he did not have the personnel and it 
was the Gulen movement that staffed it.
    But the Gulen movement also, if you ask the Kurds, the 
Gulen movement was very hard on the Kurds, because Gulenist 
judges and prosecutors unleashed lots and lots of cases against 
Kurds that are still continuing today. There are people who 
went to prison for nothing. I just met with one of the most 
important lawyers in the Diyarbakir, a few weeks ago, he spent 
4\1/2\ years in jail. You know why? Because he was at the 
demonstration, somebody 5,000 people behind him opened a flag, 
a PKK flag and the judges and the prosecutors said, oh, you are 
a member of the PKK because you were standing in front of 5,000 
people ahead of you.
    Mr. Rohrabacher. So is that the Gulen movement? Or is 
that----
    Mr. Barkey. If you go and ask the Kurds, the Gulenists were 
very, very hard on the Kurdish nationalist movement. There were 
many ways it was very good. They brought in very good staff, 
but on one issue they whether very, very hard. So it is not a 
completely--we have to also acknowledge what was wrong with 
them.
    The reason he turned on them is because he thinks--probably 
he may be right, that the Gulenists actually exposed the 
corruption. I mean the people who leaked those tapes off 
Erdogan and the money issues he thinks are Gulenists.
    And today the irony of course is that when he came to power 
and he aligned himself with Gulen against the military, today 
it is he and the military against Gulen so the alliances have 
changed, but----
    Mr. Rohrabacher. So the Gulen movement it ended up exposing 
some of the corruption----
    Mr. Barkey. Right. That is what he thinks.
    Mr. Rohrabacher [continuing]. That was part of his 
entourage?
    Mr. Bilgen. And it should be added that, we are talking 
about quite a large network, or it was large, in Turkey. It was 
influential especially media for some one of the things that I 
would like to mention is, now that the Cihan news agency, was 
seized by the government, we don't have a watchdog to actually 
follow the election. That was the only one, that was the only 
one.
    Now you are going to go learn the election results from 
state news agency, whatever number they put up it will be the 
number. But it was always checked against Cihan news numbers 
before. Since it is a large network, as I said it has--because 
of that it has usual shortcomings like it's a diverse network, 
there are nationalists, there are more biased, less biased 
people, there are more secular, less secular. And there are 
people who are just minding their business about, like, 
teaching, opening schools and so on and there are others who 
are more interested in politics. Right? So it is hard to define 
where it ends, where it begins, and how a judge or prosecutor 
is basically considered a part of it while they themselves are 
rejected and so on.
    So there are all these shortcomings and I think nobody can 
really solve that. And even the movement itself the 
spokespeople and so on, cannot really address some of these 
questions.
    So in the larger picture especially outside Turkey or 
something the movement is known by more like dialogue 
activities, education activities or something. And that seems 
to be the core of the movement and movement message rather than 
what happened in the last few years in Turkey in the political 
scene.
    Mr. Rohrabacher. Go right ahead. Comment on that----
    Mr. Makovsky. Let me say two good things about the movement 
and raise one questionable thing.
    First of all I have never seen a shred of evidence that 
they support anything other than peace. So the declaration of 
the Turkish Government that the Gulenists are a terrorist group 
is absurd.
    Second of all, in their schools they have taught science 
and mathematics; they have really emphasized what we would 
think of as more traditionally secular subjects like science 
and math. I can't vouch for exactly how they are taught, but I 
don't know of too many Islamic movements in the world that 
emphasize science and math. That is a real plus.
    Where I think the failing has been and, again, this is not 
proveable, but I think many followers of Gulen, many Gulenists 
acknowledge that a significant minority of the police and of 
the judiciary were Gulenists because they wanted to be part of 
those organizations and exercise power.
    And I think there is evidence, circumstantial evidence, 
that they did act corporately sometimes and particularly in the 
anti military trials that went from 2008 through 2011 with 
manufactured evidence and----
    Mr. Rohrabacher. It seemed to me from just a distance the 
Gulenist movement is somewhat like the Masons were in our 
country's history back in the founding of our country, they 
were idealistic people who had an idealistic philosophy. And 
again, somewhere between the masons an the Rotary Club. And I 
think----
    Mr. Bilgen. With schools.
    Mr. Rohrabacher. Just one last note here about Turkey and--
I will have a closing 1-minute statement.
    Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    This good conversation and as I am listening I am just 
thinking in my head that things are always complicated. And I 
always try to tell my children sometimes, as we are right now, 
with what is going on in America, trying to look at something 
from somebody else's point of view, turn it around.
    And as I have said in my initial statement, I am really 
concerned when I see the human rights groups and others denying 
individuals the opportunity to talk, et cetera. At the same 
time I understand that some of the interests that the Turks may 
have is different than what our interest is, because they are 
in that region and we are not. I also understand the Turks not 
necessarily just doing exactly what we tell them because it is 
just in our interest and them not seeing it being in their 
interest, just as I don't expect someone to tell us to do what 
is in their interest, if it is not in our interest.
    So that happens between countries at times. And so when I 
listen to the difficulty to the Turks, we talk about the PKK, 
there, to them they are Daesh. That is their number one 
terrorist group, not to us, because they are not to us, but to 
us it is those folks in Syria and Iran who--I call them Daesh 
because I don't call them an Islamic State they are not an 
Islamic--they don't practice Islam if you talk to any Muslim.
    So there are conflicting interests that are natural. And so 
I can't see a head of state of a country saying we are going to 
forget our national interests to go with someone else's. So our 
difficulty is is trying to figure out how we can bring it 
together so that both of our interests are taken care of.
    So what am I asking? And I go through this with another 
country all the time. And maybe Mr. Makovsky, we have this 
dialogue with the chairman all the time.
    The other big country that you have got conflicts right now 
is Russia. And Russia has different interests than we do, 
Russia though similar to Turkey had an individual that was the 
Prime Minister that decided he wanted to be the President and 
all the power shifted. Russia is not with us, we are not with 
them when they went into the U.K.
    So the first question is what is the difference, if there 
is any, because I am trying to figure out both these countries, 
between Russia and Turkey?
    Mr. Makovsky. Simply put, Turkey is an ally, Russia isn't. 
Turkey is part of the NATO alliance and that alliance is 
supposed to be dedicated to freedom and democracy, a key--a 
core of that alliance. Russia is not part of that. If you 
separate that fact and look at the trends inside those two 
countries, they become more similar. And I do--Mr. Erdogan has 
not spelled out exactly what kind of Presidency he has in mind, 
but I do worry. Many people suspect that President Putin is his 
model.
    And so you are right if you look at strictly domestic 
trends: There are a lot of similarities. But if you look at our 
responsibility, and this is my humble opinion, Mr. Ranking 
Member, if you look at our responsibility to speak out, it is 
much greater when we are talking about an ally than when we are 
not.
    Mr. Meeks. Anybody differ?
    Mr. Bilgen. Well, I would like to say that when we look at 
the larger picture, the political system of Turkey and the 
people, the public opinion which may be manipulated, but is 
very much, kind of embedded in Western alliance, NATO in 
European Union. These are hard facts, these are difficult to 
change even for a strong person as you are gone as he is now.
    So there are two ways to look at this. Some time when I 
follow the developments in Turkey I just see symptoms of state 
tradition in Turkey. State tradition in Turkey, is a very 
powerful tradition which was never democratic through addition. 
It was always bureaucratic, always prioritize state over the 
individual. So that has been going on for hundreds of years. It 
is not going to change quickly as far as I see.
    But we can see the anomaly at the moment we are facing as a 
phase in Turkey's political advancement or we may see it as a 
breaking point. It didn't break yet, okay but it may break. I 
think, you know, these next couple of years are critical.
    Mr. Meeks. Let me just ask you this then. So what I am 
trying to get at is there a way just like our priority is to 
make sure we get rid of Daesh, now is it such a priority for 
the Turks that the PKK doesn't exist? And just as we want to 
get rid of Daesh they went to get rid of PKK. They are saying 
based upon--that is what I am hearing, based upon the poll that 
you had, they are saying, well, we want you United States to 
help us get rid of the PKK because they are terrorizing us. And 
so how do we--and so there is a balance back and forth as 
opposed to they are saying, okay, we are allies, but we need 
you to help get rid of our terrorists.
    Now, I am hearing at another point that we need to push 
back so we should side with some of those folks that might be 
against them to shut them up a little bit. Where do we get to a 
balance?
    Mr. Barkey. On the PKK issue, I mean, remember the 
difference between Daesh and PKK is in the case of the PKK 
there is an original sin. The original sin is that you had a 
Kurdish problem in Turkey that was unacknowledged, repressed, 
very, very violently over the years nobody talked about it, we 
never talked about it until the PKK emerged and made it 
essentially an issue. And this by the way is something that 
Erdogan recognized. After he sat down--he had his government 
sit down with the PKK leader who was in prison on an island in 
Turkey and they negotiated a deal. So he decided to renege on 
the deal, and we have been his allies in the sense that we have 
been fighting and helping him on the PKK issue and we continue 
to do so. He essentially reneged on the deal.
    It is not like Daesh in the sense that he made a deal, he 
could have gone ahead and finished the deal and we would not be 
talking about these problems now. He made his own decision, 
fair enough. That is where I say we should be able to push back 
and maybe help maybe being an intermediary we can push back. 
The important thing to understand about Turkey though--from the 
tone of the hearing, look this is a country that is very 
divided at the moment, and it is a country where you still have 
despite all the pressure, a civil society that is pushing back 
and fighting back those are our allies.
    Mr. Meeks. All countries are very divided. The United 
States are very divided.
    Mr. Barkey. I know. But what I am saying to you is the 
impression we are getting here is the Erdogan has complete 
control. And I am saying he doesn't have complete control yet. 
So the fact of the matter is we don't have a substitute, Kuwait 
and Erbil are not a substitute, Congressman Rohrabacher to 
Turkey.
    I mean Turkey's embedded in NATO. Nobody else is going to 
replace Turkey from that perspective. We have allies in Turkey 
that we can work with even if Erdogan is problematic. But we 
need to hold to our principles and to our policies when we deal 
with Erdogan.
    Mr. Meeks. Similar to we should do in Russia? These are two 
big countries that we can't ignore.
    Mr. Barkey. Absolutely. Absolutely.
    Mr. Meeks. We can't ignore Russia, we can't ignore Turkey.
    Mr. Barkey. Right. That is my point.
    Mr. Makovsky. The balance is very difficult but you are 
absolutely right, it has to be a cornerstone principle of ours 
that we oppose the use of violence for political end so we are 
correct----
    Mr. Meeks. Absolutely.
    Mr. Makovsky [continuing]. To oppose the PKK in that 
regard. But I think we do have to acknowledge that Erdogan at 
first--at first--Erdogan came around to negotiating with the 
PKK indirectly, but almost directly, and he seemed to be the 
one that reneged on the deal. That doesn't justify the PKK use 
of violence, not at all. But I think that context is very 
important.
    And, maybe if I could add, why did he renege on the deal? 
In my view, the emergence of a Kurdish political party that 
opposed his Presidency plans, I think infuriated him. Just like 
he felt spurned by the Gulenists, he felt spurned by the Kurds 
who he felt had reason to be grateful to him and in fact made 
some very important gains under him.
    I visited Diyarbakir several times last year, but I had not 
been there for 15 years until then, and--this was before the 
fighting broke out, on my first visit--the gains were immense. 
He felt they owed him gratitude. I think when the party emerged 
that, contrary to his expectations, opposed his Presidency 
ideas rather than supported it, he decided to unleash the 
furies.
    Mr. Rohrabacher. Well thank you very much. And I would like 
to thank the witnesses, I just have a very short observation 
which is of course the prerogative of the chair.
    Mr. Meeks. Of the chair.
    Mr. Rohrabacher. Would you like to have a final word?
    Mr. Meeks. Again just thanking you, very insightful and I 
thank the chair for having us here. I think in the next few 
months we should have another one and hopefully in January when 
I am the chair we will have another one.
    Mr. Rohrabacher. I will be the ranking member, what?
    Mr. Meeks. But I just want to thank you very much. This 
kind of dialogue is tremendously important for us to air out 
for us to think about as you move forward. This stuff is not 
easy, it is not simple, it is complicated. And as many people 
as I talk to about--one side they are on one side or the other, 
very similar to here in the United States. If you come and went 
to one particular State the United States is all one way and 
talk to someone else and say oh, no, it is another way. And 
this kind of dialogue is very helpful.
    So Mr. Chairman, I think that this commitment to the 
committee and hearing is very timely and very important to 
looking at what we are doing on the Foreign Affairs Committee 
as far as foreign policy.
    Mr. Rohrabacher. Yes. I think Mr. Meeks and I have a very 
good relationship and I think it is exemplary of our Foreign 
Affairs Committee, and that we are able to do things. I would 
remind Mr. Meeks and other members that we will be trying to 
put together a sense of the House resolution expressing 
concerns over the trends in Turkey, not condemnations but 
expressing concerns over the trends in Turkey.
    When we are analyzing Turkey within the context of what is 
going on in the bigger picture and the EU is falling apart, 
think about this. Britain's exit of the EU, this is a first 
huge step--as huge, as someone else would say who may end up 
President--and so so we have got some changes.
    And of course in our lifetime Turkey was constantly trying 
to become part of the EU and part of the common market. And now 
I think that is probably history. And I think that Erdogan 
represents more of a nationalistic Turkey focus rather than 
Europe focus approach. So these are all major changes that are 
going on. And let us hope that as these changes happen I 
believe that NATO--if we have a new President, if it is Mr. 
Trump, I would expect that NATO and the EU alliances would 
become less important and that individual deals and 
relationships between countries, respecting that each country 
has its own interest at stake, but trying to find the common 
ground where people can act together, that will replace some of 
the more systematized approaches that we have had since the 
beginning of the cold war and the cold war is over.
    So with that said, whatever emerges in this new era, Turkey 
will play a very significant role. It is right there in the 
middle of everything.
    So we have taken very seriously, we respect the people 
there. We are concerned that its trendline--and by the way just 
one last note, it has been my experience that whenever the 
suppression of the press goes up, the level of corruption rises 
at the same rate.
    And if we have the suppression of various political 
elements in society, in Turkey. And we have the suppression of 
freedom of the press you can expect that there will be 
corruption as a result and it will not bode well for the people 
of Turkey. We are on their side.
    And I now hold this committee adjourned.
    [Whereupon, at 4:32 p.m., the subcommittee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------  
                              
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]                           
                              

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
